No. 20-1751

 

In THE

Supreme Court of the United States

SUSAN FISCHER AND JEANETTE SPECK,

Petitioners,
Vv.

GOVERNOR OF NEW JERSEY; NEW JERSEY EDUCATION
ASSOCIATION; TOWNSHIP OF OCEAN EDUCATION
ASSOCIATION,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,758 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 13, 2021.

Colin Casey on

Wilson-Epes Printing Co., Inc.
